                                            OFFICE OF INSPECTOR GENERAL
                                                                   MEMORANDUM



DATE:          May 17, 1995

TO:            Chairman

FROM:          Acting Inspector General

SUBJECT:       Internet Penetration Analysis

As part of our on-going effort to ensure protection of the Commission's information resources,
this office has recently completed an Internet Penetration Analysis. The purpose of this analysis
was to evaluate the controls in place to prevent an unauthorized and potentially hostile
penetration of the internal FCC network via the internet.

In general, our review indicates that the Associate Managing Director - Information
Management (AMD-IM) has established effective controls over access to the internal FCC
network from external sources. These controls include use of a firewall to manage data traffic,
control over the use of potentially risky software utility products, and patches to commonly
exploited software weaknesses. However, the review revealed four areas where improvements
in control are recommended. The Office of Inspector General (OIG) is currently working with
AMD-IM to address these areas. While the Commission cannot be assured that a skilled and
deliberate "hacker" cannot penetrate internal FCC computers via the internet, we believe that
AMD-IM has taken necessary and prudent measures to minimize this risk.

The Internet Penetration Report (OIG Report Number 95-3) is being maintained in a secure file
area within the OIG. The report will not be disseminated due to the risk that sensitive
information contained in the report could be used in a manner inconsistent with the normal
operations of the Commission. If you would like to discuss this review, or require a copy of the
report, please contact me at 418-0470.




                                                    H. Walker Feaster III

cc: Chief of Staff
  Managing Director
REVIEW OBJECTIVE

The objective of this analysis was to attempt to penetrate the internal Federal Communications
Commission (FCC) network from an external source through the internet, identify any potential
weaknesses in the system security infrastructure, and document the controls in place to prevent a
successful penetration.

REVIEW SCOPE

The scope of this analysis was limited to that of a technically skilled individual with internet
access but no internal knowledge of the Commission or its computing environment. In addition,
the scope was restricted to activities that were within the limitations of acceptable internet use
policies (as proscribed by internet provider services) and all applicable federal, state, and local
laws. It should be noted that a malicious attacker would not necessarily be concerned about such
restrictions. Furthermore, the scope did not address exposures that could occur through acts of
fraud or collusion.

The Office of Inspector General (OIG) selected the Certified Public Accounting firm of Coopers
& Lybrand L.L.P. (C&L) through a competitive procurement to attempt to penetrate the FCC
using the same readily available techniques an unauthorized party or "hacker" would employ.
Officials in the office of the Associate Managing Director - Information Management (AMD-
IM) were notified in advance and entered into a cooperative arrangement with the OIG to
facilitate this project. As part of this agreement, AMD-IM personnel were involved in the
planning of the penetration analysis and visited C&L's computer laboratory located in Floral
Park, New York during testing. In return, AMD-IM officials agreed to ensure the integrity of the
project by making only routine adjustments to the configuration of the FCC's internal operating
system pending conclusion of the audit field work.

To conduct the review, computer professionals from C&L developed a custom methodology to
guide the penetration efforts. The methodology employed was as follows:

       {gathered information about FCC resources recognized on the internet (e.g., public host,
             firewall, etc.),

       {manually probed available hosts to determine the existence of published security
            weaknesses and to identify specific accounts to target for "brute force" password
            attacks, and

       {used readily available automated software "tools" to attack these resources.

Among the automated tools used in the review was a recently released product called Systems
Administrator Tool for Analyzing Networks (SATAN). SATAN was developed as a security
tool which systems administrators can use to identify particular vulnerabilities in their networks.
 However, once released into the public domain on April 7, 1995, SATAN became another tool
which could be employed by hackers to attack systems.
BACKGROUND

In February 1994 the FCC established connectivity to the internet. The FCC internet connection
supports three functions: (1) the ability to send and receive mail, (2) access to databases and files
on other internet systems, and (3) the making of FCC information and data available to other
internet users. Since it's implementation, internal and external use of the FCC connection has
been heavy. The Commission has made hundreds of documents available for public review,
provided extensive round by round coverage results of spectrum auction activities, and supported
e-mail traffic of approximately 5000+ messages per day.

In response to the success of internet access, and as a result of increased customer demand, the
FCC is currently pursuing various initiatives for expanding the Commission's use of the internet.
 Specific initiative items include posting engineering databases, enabling MOSAIC access from
FCC workstations, and allowing access to FCC bulletin board systems through the internet. The
total cost of these initiatives in AMD-IM's FY 1995 IRM budget is $1,325,000.

Although the opportunities afforded by the internet are numerous, the risks associated with
connectivity can be significant. Reports of attacks on internet hosts are increasing and the level
of sophistication associated with these attacks is also on the rise. Many individuals who have
either been apprehended by law enforcement agencies, or have boasted of their exploits, have
listed government agencies and Fortune 500 companies as prime attack goals. The nature of the
work the FCC conducts, and the leadership role being taken by the Commission in the
development of the information superhighway make the FCC host a likely target for attack. For
this reason, it is especially important for the Commission to secure it's valuable and high-profile
information.

REVIEW FINDINGS

Our initial attempts at penetration focused on the FCC's firewall. In the Commission's
computing environment, a firewall is a computer used to manage traffic between the internet and
the internal FCC network. A primary function of a firewall is to prevent unauthorized access to
internal data. Based on the testing conducted, the audit team concluded that the FCC's firewall
appeared to be properly configured (i.e., sensitive utilities were disabled, published weaknesses
were patched, etc.).

Following unsuccessful efforts to compromise the FCC firewall, the focus of the attack shifted to
the Commission's router and the public host that serves as the anonymous FTP, gopher, world
wide web, and backup mail server. The intent of this approach was to obtain "root" access to the
public host and launch a spoofing attack on the firewall (i.e., appearing to the firewall as an
internal host). Although this objective was not met, concerns related to the configuration of the
public host were identified. The OIG is working with representatives from AMD-IM to address
these concerns. For purposes of security, the details of these issues are not detailed in this
document.

Based upon the knowledge gained in this review, the OIG plans to continue to perform work in
the computer security area. Projects are currently being formulated to ensure that the
Commission has developed adequate levels of internal controls to address the risks that reside in
complex automated networks such as that being used by the Commission.
